December 26, 2008

ROSS PHILO
EXECUTIVE VICE PRESIDENT, CHIEF INFORMATION OFFICER

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

KATHY AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Financial Installation Audits – Post Offices,
         Stations, and Branches (Report Number FF-AR-09-055)

This report presents the results of our financial installation audits of 105 post offices,
stations, and branches for fiscal year (FY) 2008 (Project Number 08BD001FF000). We
conducted this work in support of the audit of the U.S. Postal Service’s financial
statements. Appendix A presents additional information about this audit.

Conclusion

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. In Appendix B, we identify one location where controls,
overall, were not effective, and eight additional locations where major segments of post
office internal controls were not effective. Appendix C lists each issue reported during
FY 2008 and the number of units where the issue was also reported in FYs 2006 and
2007. Appendix D presents statistical projections of the number of units with the 10
most frequently reported internal control deficiencies. In our FY 2007 capping report,3
we disclosed similar internal control deficiencies and recommended the Postal Service
develop and implement an action plan to measurably reduce or eliminate the reported
deficiencies. In FY 2008, the Postal Service developed an action plan to address the
control deficiencies and is currently implementing their plan; therefore, we are not
making a similar recommendation in this report.

We made recommendations to district management addressing internal control and
compliance issues at each installation. District management’s comments were
responsive to our findings, recommendations, and $819,602 in monetary and


3
 Fiscal Year 2007 Financial Installation Audits – Post Offices, Stations, and Branches (Report Number
FF-AR-08-122, dated March 5, 2008).
Fiscal Year 2008 Financial Installation Audits –                                                           FF-AR-09-055
 Post Offices, Stations, and Branches


$25.8 million in non-monetary impacts. The actions taken or planned should correct the
issues identified at these installations.4

During our analysis of the results of control deficiencies at postal retail units, we
identified systemic issues regarding obsolete money order forms, password protection
policies, cash receipts, and unsecured passport documents.

Obsolete Money Orders

Post offices maintained over 12,000 obsolete blank money order forms at 10 of the
105 retail units visited in FY 2008. We estimate there are at least 72,814 obsolete blank
money order forms remaining at additional retail units5 nationwide. In addition, we
found the obsolete equipment used to imprint the forms at one of the 10 units that had
these forms. The Postal Service designed these money order forms for Paymaster®
manual money order imprinters, and these retail units did not destroy or transfer the
forms when they converted to the Point-of-Service (POS) financial reporting system.
Headquarters management instructs retail unit managers to destroy partial sets of
obsolete money order forms and return full blocks, intact, to the Stamp Distribution
Office when the unit converts to the POS system. Although management provided
guidance to retail unit managers, they did not develop and implement a plan to ensure
that retail units complied with the instructions to destroy or return obsolete money order
forms following conversions to the POS system. As a result, the Postal Service has an
increased risk of $24.1 million of cash losses if these money orders are stolen and
cashed. We consider the $24.1 million accountable items at risk and will report this
non-monetary impact in our Semiannual Report to Congress. Appendix E presents the
details of our calculation.

We recommend the Vice President, Retail Operations, in conjunction with the Vice
President, Controller:

1. Develop and implement a plan to eliminate obsolete money order forms from
   Point-of-Service retail units.

Management’s Comments

Management agreed with the recommendation and stated Retail Operations, in
coordination with Finance, will instruct field offices to properly dispose of all obsolete
money order forms and Paymaster imprinters in compliance with Handbook F-101, Field
Accounting Procedures. The instructions will include a template to report the actions
taken to the Area Retail Manager. In addition, Retail Operations will instruct Area POS
Coordinators to ensure that future Integrated Retail Terminal (IRT) offices converted to
POS will follow the IRT to POS Conversion Checklist, which includes the proper
disposition process for IRT money order forms. Management expects to complete all
4
  Additionally, at 25 of the sites audited, we referred situations that warranted further examination to the U.S. Postal
Service Office of Inspector General (OIG) Office of Investigations.
5
  We considered retail POS units with at least $50,000 in annual revenue.



                                                            2
Fiscal Year 2008 Financial Installation Audits –                                                FF-AR-09-055
 Post Offices, Stations, and Branches


actions by February 28, 2009. Management neither agreed nor disagreed with the non-
monetary impact. We have included management’s comments, in their entirety, in
Appendix G.

Password Protection Policies

Postal Service accounting procedures do not comply with the information security
requirement that prohibits writing down passwords.6 Handbook F-101 requires field
units to enclose logon IDs and passwords in duplicate key envelopes.7 We do not
believe the security of these passwords is sufficient and find the Postal Service has an
increased risk of losing assets and revenue if these passwords are inappropriately
accessed. During our FY 2008 audits, we found that 10 of 105 locations did not
adequately secure duplicate key envelopes.8 Headquarters management said they
require employees to maintain these passwords in duplicate key envelopes to allow
supervisors to perform credit examinations when the credit holder is away from the
office for an extended period. However, Postal Service policy requires supervisors to
cancel credits not used at least once a month and, consequently, no examinations
should be required for those on extended leave.

We recommend the Vice President, Controller, in conjunction with the Executive Vice
President, Chief Information Officer:

2. Resolve the conflict between the requirement in Handbook F-101, Field Accounting
   Procedures, to enclose Point-of-Service logon IDs and passwords in duplicate key
   envelopes and the Handbook AS-805, Information Security, requirement that
   prohibits writing down passwords.

Management’s Comments

Management agreed with the recommendation and stated Corporate Information
Security will update Handbook AS-805 by March 31, 2009, to incorporate security
requirements for passwords that are written down or stored outside the user’s personal
control.

Cash Receipts

Postal Service policy permits the use of unnumbered receipts9 for making temporary
cash payments or as part of the unit’s contingency plan, if POS functions are interrupted
because of a power failure or a security breach. However, allowing employees to use
unnumbered receipts is not a safe business practice. Unnumbered receipts are a
known tool for retail embezzlement and expose the Postal Service to increased risk.
For example, retail associates working at POS offices sell postage from shared stock

6
  Handbook AS-805-C, Information Security for General Users, Section 2, May 2007.
7
  Handbook F-101, Section 3-8, July 2008.
8
  This condition existed at 12 of 105 locations in our FY 2007 financial installation audits.
9
  Postal Service (PS) Form 1096, Receipt.



                                                             3
Fiscal Year 2008 Financial Installation Audits –                               FF-AR-09-055
 Post Offices, Stations, and Branches


and are not individually accountable for losses. They can embezzle cash by providing
unnumbered receipts to customers without recording postage sales. Management was
unaware the form was readily available and commonly used at retail units for purposes
other than those prescribed. Requiring pre-numbered or system generated receipts
helps ensure that retail associates deposit all cash they receive from customers.

We recommend the Vice President, Controller:

3. Update Handbook F-101, Field Accounting Procedures, to eliminate references to
   Postal Service Form 1096, Receipt.

4. Eliminate the electronic copy of Postal Service Form 1096 from the Postal Service’s
   intranet.

5. Issue guidance to the field to destroy all copies of Postal Service Form 1096 and
   determine when this has been completed.

Management’s Comments

Management agreed with the recommendations and stated they need to update
Handbook F-101 in regard to unnumbered PS Forms 1096. Management does not
want to completely eliminate the use of PS Form 1096 at non-POS offices to support
receipt of funds. However, in order to eliminate misuse of the form, they will create a
pre-numbered form. Once management creates the pre-numbered form they will
eliminate the electronic version and request that all PS Forms 1096 be disposed of
properly. Management expects to complete all actions by June 30, 2009.

Unsecured Passport Documents

Employees at 11 units did not secure completed passport applications before mailing
them to the passport agency. Primarily, this condition occurred at retail units because
managers and employees were unaware of, or did not fully understand, all internal
control requirements. We reviewed the guidance and found that it does not clearly state
which documents employees should secure and how long they should retain these
forms. The Passport Agent's Reference Guide (PARG) requires units to secure
passport applications. The Administrative Support Manual (ASM) and Handbook F-101
require units to secure the Daily Passport Application Transmittal (the transmittal) but
not the applications. Handbook F-101 also says units must destroy the transmittal after
4 years, but the PARG and ASM require units to maintain it for 1 year. As a result,
Postal Service customers have an increased risk of their Social Security numbers and
other sensitive personal information being stolen.




                                                   4
Fiscal Year 2008 Financial Installation Audits –                              FF-AR-09-055
 Post Offices, Stations, and Branches


We recommend the Vice President, Retail Operations:

6. Update the portion of the Administrative Support Manual that covers securing and
   retaining Postal Service Forms 5659, Daily Passport Application Transmittal, and
   Department of State Forms DS-11, Application for a U.S. Passport. The policies and
   procedures should, at a minimum, be consistent with:

    •   Requirements in the Passport Agent's Reference Guide for securing passport
        applications.

    •   Guidelines in Handbook F-101, Field Accounting Procedures, for retaining Postal
        Service Forms 5659.

Management’s Comments

Management agreed with the recommendation and stated they will update the
Administrative Support Manual to include proper security of PS Forms 5659 with a
retention period consistent with Handbook F-101 and the Passport Agents Reference
Guide. Revision is targeted for completion by March 31, 2009.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations
and the corrective actions should resolve the issues identified in the report. We will
continue to follow-up on the issues and corrective actions taken in response to our
recommendations in our FY 2009 financial installation audits. Although management
did not agree or disagree with the non-monetary impact discussed, we will report the
$24.1 million as accountable items at risk in our Semiannual Report to Congress.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                   5
Fiscal Year 2008 Financial Installation Audits –                            FF-AR-09-055
 Post Offices, Stations, and Branches



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, Director,
Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: William P. Galligan
    H. Glen Walker
    Vincent H. DeVito, Jr.
    Katherine S. Banks




                                                   6
Fiscal Year 2008 Financial Installation Audits –                                   FF-AR-09-055
 Post Offices, Stations, and Branches


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG conducts financial field audits at post offices and self-service and automated
postal centers; business mail entry units; and stamp distribution offices. We conduct
these audits in support of the independent public accounting firm’s overall audit opinion
on the Postal Service’s financial statements.

Post offices, which include main offices, stations, and branches, are postal retail units
where the Postal Service initially recognizes revenue from operations. Financial
activities at these installations include, but are not limited to, post office box and caller
service, money orders, payments, and postage sales. Field unit managers and
supervisors are responsible for ensuring that employees collect all revenues due the
Postal Service, account for revenues in a timely manner, and maintain the required
supporting documentation.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objectives were to determine whether financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish these objectives, we conducted unannounced audit fieldwork at
105 statistically selected post offices, stations, and branches. These 105 units reported
$296 million in revenue in FY 2007. Appendix F lists the locations we audited.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We also evaluated whether the internal control structure over
financial reporting and safeguarding of assets was implemented and functioning as
designed.

We conducted this audit from October 2007 through December 2008 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes a sufficient understanding of internal controls to plan the audit and determine
the nature, timing, and extent of audit procedures to be performed. We supported the
external auditors in obtaining reasonable assurance about whether the financial
statements are free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with generally


                                                   7
Fiscal Year 2008 Financial Installation Audits –                                       FF-AR-09-055
 Post Offices, Stations, and Branches


accepted government auditing standards may not detect a material misstatement.
However, the external auditors and the OIG are responsible for ensuring that Postal
Service officials are aware of any significant deficiencies that come to our attention.

We discussed our observations and conclusions with management on November 17,
2008, and included their comments where appropriate. Additionally, we issued
individual reports at each unit audited and made recommendations to district
management addressing those findings. District management’s comments were
responsive to our findings and recommendations and the actions taken or planned
should correct the issues identified at these installations. We traced recorded financial
transactions to and from supporting documentation and assessed the reliability of
computerized data by verifying the computer records to source documents.

PRIOR AUDIT COVERAGE

We evaluated all findings from reports previously issued at FY 2008 audit sites for
FYs 2005 through 2007. We reported the status of the recommendations in each of
the installation reports issued. Additionally, we issued three capping reports for
FYs 2005 through 2007 summarizing our installation-level audits.

                                                                 Report
                       Report Title                                            Final Report Date
                                                                 Number
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxx
                                                                FF-AR-06-066    January 24, 2006
xxxx xxxx xxxx xxxx xxxxxx – xxxx xxxx xxxx, xxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx –
                                                                FF-AR-06-089      March 2, 2006
xxxxxxxx xxxx xxxx xxxxxx – xxxxxxxx, xxxxxxxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx – xxxxxx
                                                                FF-AR-07-002     October 2, 2006
xxxx xxxx xxxxxx – xxxxxx, xxxxxxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx –
                                                                FF-AR-06-045    January 27, 2006
xxxxxxxxx xxxx xxxxxx xxxxxx – xxxxxxxxx, xxxxxxxx
xxxxxx xxxx xxxx xxxxxxxxx xxxxxxxxxxxx xxxxx –
                                                                FF-AR-05-156      June 24, 2005
xxxxxxxx xxxx xxxx xxxx xxxxxx – xxxxxxxxxxxxx, xxxxxxx
Capping Reports
Fiscal Year 2007 Financial Installation Audit – Post Offices,
                                                                FF-AR-08-122      March 5, 2008
Stations, and Branches
Fiscal Year 2006 Financial Installation Audit – Post Offices,
                                                                FF-AR-07-094    February 20, 2007
Stations, and Branches
Fiscal Year 2005 Financial Installation Audit – Post Offices,
                                                                FF-AR-06-196      June 20, 2006
Stations, and Branches




                                                     8
Fiscal Year 2008 Financial Installation Audits –                                                                              FF-AR-09-055
 Post Offices, Stations, and Branches


                    APPENDIX B: SITES WHERE INTERNAL CONTROLS
                         WERE NOT IN PLACE AND EFFECTIVE

                                                                                                                        Major
                                                                                                                     Segments of
                                                                                                                       Internal




                                                                             Overall Controls Not Effective
                                                                                                                       Controls




                                                                                                              Stamp, Cash, and Money Order




                                                                                                                                                                        Post Office Box and Caller
                                                                                                                                             Financial Accounting and
                                                                                                                 Accountability Controls

                                                                                                                                                Reporting Controls

                                                                                                                                                                            Services Controls
                                         Report
1   xxxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxxx, xxxx xxxxxxxx; xxxxxxxxxxxx     x                                        x                             x
2   xxxxx x. xxxxx xx. xxxxxxxx xxxx xxxxxx – xx xxx, xxxxxx;xxxxxxxxxxxxx                                            x
3   xxxxx xxxxxx – xxxxxx, xxxx; xxxxxxxxxxxx                                                                         x                             x
4   xxxx xxxxxx xxxxxxx – xxxxxxxxxx, xxxxxxx; xxxxxxxxxxxx                                                           x                             x                          x
5   xxxxx xxxxxxx – xxxxxxxxx – xxxxxxxxx, xxxxxx; xxxxxxxxxxxx                                                       x
6   xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxxxx; xxxxxxxxxxxx                                                           x                                                        x
7   xxxxxxx xxxxxxx – xxxx Bxxxxx, xxx xxxxxx; xxxxxxxxxxxx                                                           x
8   xxxxxxx xxxxxxx xxxx xxxxxx – xxx xxxxxxx, xxxxxxxxxx; xxxxxxxxxxxx                                                                                                        x
9   xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxx xxxx; xxxxxxxxxxxx                                                        x
    Totals                                                                   1                                       8                             3                           3

.




                                                   9
Fiscal Year 2008 Financial Installation Audits –                                                       FF-AR-09-055
 Post Offices, Stations, and Branches


            APPENDIX C: CONTROL DEFICIENCIES AND THE FREQUENCY
                           THEY WERE REPORTED10

                                                                                  Number of Sites with Control
                                                                                         Deficiencies
                                                                                                                    11
                Description of Control Deficiency                               FY 2008      FY 2007      FY 2006
STAMP, CASH, AND MONEY ORDER ACCOUNTABILITIES
The unit did not conduct timely examinations of cash retained
                                                                                   52           59            73
accountabilities.
The unit allowed retail floor stock to exceed the 2-week postage
                                                                                   47           42            51
sales limit.
The unit did not ensure employees prepared or fully completed
                                                                                   42           44            49
duplicate key envelopes.
The unit did not conduct timely examinations of unit cash reserve
                                                                                   39           34            41
accountabilities.
The unit did not verify or document at least annually that an
                                                                                   39           44            44
employee's accountability keys did not open another's accountability.
The unit did not close inactive credits.                                           33           33            33
The unit did not restrict access to Postal Service information
                                                                                   28           24            8
resources to authorized employees.
The total office accountability exceeded the 3-month stamp stock
                                                                                   26           14            18
limit.
The unit did not secure retail floor stock.                                        21           13            14
The unit did not conduct timely examinations of unit reserve stamp
                                                                                   18           20            22
accountabilities.
Unit employees did not secure cash and stamp credits.                              16            5           N/A
The unit did not verify that locks and combinations were changed.                  16           16           11
The unit did not document credit examination results on PS Form
3368, Stamp Credit Examination Record.                                             14           41            30

The unit did not prevent sales associates from exceeding the
                                                                                   12            6            10
authorized cash retained limit.
The unit did not ensure that all money orders were inventoried.                    11            9           N/A
The unit did not destroy obsolete or damaged money orders.                         11           6            N/A
The unit reserve custodian did not secure unit reserve stock.                      10           13           N/A
The unit allowed the cash reserve to exceed the authorized limit.                  10           13           14
The unit did not secure duplicate keys.                                            10           12           N/A
The unit did not secure cash, stamps, or other accountable items.                   9           2            N/A
The unit did not secure money orders.                                               8            6           N/A
The unit did not limit employees' access to the unit cash reserve.                  8           16            9
The unit did not properly document credit examination results on PS
Form 3294, Cash and Stamp Stock Count and Summary, or retain                       7            44            35
the forms.12


10
   We reported compliance issues, but we also observed compensating controls. These compensating controls
allowed us to conclude that, in most cases, internal controls were in place and effective.
11
   Comparative data for items (shown as N/A) is not available. These items were not evaluated in the prior FYs, are
summarized in categories different than those used in FY 2008, or had no findings reported in FY 2006 or FY 2007.
12
   In FY 2008, we did not test this control at retail units with the POS financial reporting system.



                                                         10
Fiscal Year 2008 Financial Installation Audits –                                            FF-AR-09-055
 Post Offices, Stations, and Branches

                                                                         Number of Sites with Control
                                                                                Deficiencies

               Description of Control Deficiency                        FY 2008   FY 2007      FY 200611
The unit did not conduct timely examinations of individual stamp
                                                                          7           9           3
credits.
The unit did not witness accountability examinations, as required.        6           7           6
The unit did not follow proper vending procedures.                        6           7          13
The unit used vending funds to make change.                               6           6          N/A
The unit did not record all financial transactions.                       5           5           2
The unit did not always post overages and shortages.                      5           8          11
The unit did not properly document, execute, or record external stock
                                                                          5           4           8
transfers.
The unit did not remit funds from vending sales.                          5           8          N/A
The unit did not secure cash and checks.                                  4           9          N/A
The unit did not remit all funds from retail operations.                  4           5           6
The unit did not ensure cash or stamp reserves were kept separate
                                                                          4         N/A          N/A
from other accountable credits.
The unit did not conduct timely examinations of vending
                                                                          3           8           24
accountabilities.
The unit did not conduct timely examinations of consigned rural route
                                                                          3         N/A          N/A
stamp credits.
The unit did not prevent employees from storing personal funds with
                                                                          2           6           4
Postal Service funds.
The unit did not complete or retain PS Forms 17, Stamp
                                                                          2           4          N/A
Requisition/Stamp Return, to document an internal stock transfer.
The unit did not secure vending accountabilities.                         2          3           N/A
The unit did not follow check acceptance procedures.                      1         N/A          N/A
The unit did not ensure that all accountabilities were listed on the
                                                                          1           3          N/A
clerk’s balance list or manual accountability recap sheet.
The unit did not return Paymaster money order imprinters when the
                                                                          1         N/A          N/A
POS system was installed.
The unit did not adequately separate duties.                              1           2           6
FINANCIAL ACCOUNTING AND REPORTING
The unit did not properly prepare bank deposits.                          37         42           40
The unit did not monitor advance deposit accounts for inactivity.         36         39           29
The unit did not monitor and resolve financial differences.               31         38           29
The unit did not review completed PS Forms 5659.                          27        N/A          N/A
The unit did not follow closeout procedures.                              23         25           12
The unit did not monitor employee items or promptly clear them.           18         34           39
The unit did not ensure that all employees completed Bank Secrecy
                                                                          18         12          N/A
Act training or document the training.
The unit did not properly operate the postage validation imprinter or
                                                                          16         12           13
make adjusting entries.
The unit did not secure completed passport applications before
                                                                          11        N/A          N/A
mailing them to the passport agency office.
The unit did not monitor or reconcile master trust account balances.      9          14           29
The unit did not have a current bad check list for employees to use
                                                                          9           2          N/A
during check acceptance.



                                                    11
Fiscal Year 2008 Financial Installation Audits –                                               FF-AR-09-055
 Post Offices, Stations, and Branches

                                                                            Number of Sites with Control
                                                                                   Deficiencies

               Description of Control Deficiency                           FY 2008   FY 2007      FY 200611
The unit did not ensure business reply mail (BRM) revenue was
                                                                             5           9           9
collected.
Retail associates did not properly complete and submit PS Forms
                                                                             3           6          N/A
8105-A, Funds Transaction/Transfer Report.
Unit employees did not verify whether customers or businesses were
                                                                             3           2          N/A
on the bad check list.
The unit did not ensure BRM revenue was recorded.                            2           1          N/A
The unit did not obtain BRM annual fee payment receipts from BRM
                                                                             2           1          N/A
agents.
The unit did not ensure passport revenue was collected.                      2         N/A          N/A
The unit did not separate passport acceptance and review duties.             1         N/A          N/A
POST OFFICE BOXES AND CALLER SERVICE
The unit did not close or block post office boxes for customers who
                                                                             19         10           11
did not pay their fees.
The unit did not adequately separate post office box duties.                 13         13           9
The unit did not keep the Web Box Activity Tracking System up to
                                                                             8           7           9
date.
The unit did not properly collect post office box fees and reserve
                                                                             3           5          N/A
service fees.
The unit did not properly collect caller service fees for customers with
                                                                             3           3           3
caller service.
PAYROLL
The unit did not have adequate documentation to support payroll
                                                                             25         23           27
transactions.
The unit did not complete or maintain PS Forms 1723, Assignment
                                                                             9           4          N/A
Order, to support higher-level authorization.
The unit did not record higher-level pay for an employee’s temporary
                                                                             1         N/A          N/A
assignment.
PURCHASING
The unit did not verify disbursement transactions were supported.            37         34           17
The unit did not update the master personal identification number
                                                                             25         19           21
(PIN) list for the Voyager fleet credit card.
The unit did not keep receipts to support Voyager transactions.              14          8           12
The unit did not ensure that SmartPay Purchase Card cardholders
reviewed, signed, dated, and forwarded the card statements to the            10          8           13
approving official within the time limit.
The SmartPay Purchase Card approving official did not verify, sign,
                                                                             8          10           11
and date the credit card statements within the time limit.
The unit did not properly reconcile monthly Voyager purchases.               6           5           4
The cardholder did not create requisitions through eBuy’s online
                                                                             6           4          N/A
requisition and approval feature before making purchases.
The unit did not secure the Voyager master PIN list.                         5          10           6
The unit did not properly record receipts or disbursement accounts.          3          1            1
The unit did not properly assign Voyager PINs.                               3          3            4
The unit did not process postage refunds and exchanges properly.             2          1            2




                                                     12
Fiscal Year 2008 Financial Installation Audits –                                             FF-AR-09-055
 Post Offices, Stations, and Branches

                                                                          Number of Sites with Control
                                                                                 Deficiencies

               Description of Control Deficiency                         FY 2008   FY 2007      FY 200611
The unit did not keep receipts to support SmartPay Purchase Card
                                                                           2           2           4
transactions.
The unit did not use eBuy as the primary purchasing method for local
                                                                           1         N/A          N/A
purchases.
BUSINESS MAIL ACCEPTANCE
The unit accepted business mailings without verifying the customers        5           1          N/A
signed postage statements.
Management did not verify that retail associates completed all             4           1          N/A
applicable sections on business mailer postage statements.
The unit did not record business mail postage statements upon mail         3         N/A          N/A
acceptance.
The unit did not complete all sections of the postage statements after     2         N/A          N/A
mail acceptance.
The unit did not ensure all Permit Imprint revenue was collected.          1           1          N/A
The unit did not verify the mailer’s sections of the postage statement     1         N/A          N/A
were completed.
The unit accepted business mailings from a customer without                1           1          N/A
verifying the customer paid the annual mailing fee.




                                                    13
Fiscal Year 2008 Financial Installation Audits –                                           FF-AR-09-055
 Post Offices, Stations, and Branches



                          APPENDIX D: SAMPLING METHODOLOGY

In support of the audit objectives, we employed a stratified random sample of post
offices, stations, and branches (units). The sample design allows statistical projection
of the number of units having the types of internal control deficiencies that were the
subject of the audit. We made separate projections for each category with internal
control deficiencies. The audit universe consisted of 23,253 units with revenues of
more than $50,000. We sampled 105 units as a stratified attributes design further
allocated to each of four revenue-based strata.

For the 10 most frequent findings, we calculated the point estimate of the total number
of deviations, as well as the associated confidence interval. Based on the sample
results, we project the following with a 95 percent confidence level.

                                                             Statistical Projections
              Finding                         Lower Limit           Upper Limit        Point Estimate
                                             (Percentage)          (Percentage)         (Percentage)
The unit did not conduct timely
examinations of cash retained              5,365     23.07       10,304    44.31       7,835    33.69
accountabilities.
The unit allowed retail floor stock to
exceed the 2-week postage sales            7,749     33.32       13,341    57.37   10,545       45.35
limit.
The unit did not ensure that
employees prepared or fully                6,497     27.94       12,225    52.57       9,361    40.26
completed duplicate key envelopes.
The unit did not conduct timely
examinations of unit cash reserve          5,146     22.13       10,299    44.29       7,722    33.21
accountabilities.
The unit did not verify or document
at least annually that an employee's
                                           5,730     24.64       11,297    48.58       8,513    36.61
accountability keys did not open
another employee’s accountability.
The unit did not properly prepare          5,235     22.51       10,390    44.68       7,813    33.60
bank deposits.
The unit did not verify that
disbursement transactions were             4,384     18.85       9,511     40.90       6,948    29.88
supported.
The unit did not monitor advance           2,051      8.82       4,671     20.09       3,361    14.45
deposit accounts for inactivity.
The unit did not close inactive            2,534     10.90       6,573     28.27       4,554    19.58
credits.
The unit did not monitor and resolve       4,704     20.23       10,109    43.47       7,406    31.85
financial differences.




                                                     14
Fiscal Year 2008 Financial Installation Audits –                              FF-AR-09-055
 Post Offices, Stations, and Branches



                 APPENDIX E: CALCULATION OF NON-MONETARY IMPACT

At the 14,998 offices in the POS site universe, the overall point estimate of the number
of obsolete money order forms is 582,550. However, the relative precision achieved with
that estimate does not meet OIG reporting standards. Therefore, we are projecting the
number of obsolete money order forms using the lower bound of a two-sided 90 percent
interval, and we are 95 percent confident that at POS units with revenues of more than
$50,000, the number of obsolete money order forms is at least 72,814. If each money
order form is valued at $400,13 then accountable items at risk of loss because of
inadequate internal controls is at least $29,125,600. We deducted the $5,024,400 of
accountable items at risk identified in the individual FY 2008 installation audit reports
from the total estimated amount, leaving a total of $24,101,200.




13
     The average value of lost and stolen money orders was $400.



                                                         15
Fiscal Year 2008 Financial Installation Audits –                                                    FF-AR-09-055
 Post Offices, Stations, and Branches


          APPENDIX F: POST OFFICES, STATIONS, AND BRANCHES AUDITED
                       AND REPORTS ISSUED NATIONWIDE

                                                             FY 2007           Monetary         Non-Monetary
                  Report Title and Number                    Revenue           Impact14           Impact15
          xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxxxx,
     1                                                       $19,630,233            $34,715              $1,148
          xxxxxxxxxxxx
          xxxxxxxxxx xxxx xxxxxx – xxxxxxxxxx,
     2                                                        14,126,719              25,280          1,638,485
          xxxxxxxx, xxxxxxxxxxxx
          xxxx xxxx xxxx xxxx xxxx xxxxxx – xxxx
     3                                                        13,227,257              50,039                  —
          xxxx xxxx, xxxx, xxxxxxxxxxxx
          xxxxxxx xxxx xxxxxxxx xxxx xxxxxx – xxxxx,
     4                                                        10,540,583               1,158               4,200
          xxxxxxx, xxxxxxxxxxxx
          xxxxxxxxxx xxxx xxxxxx – xxxxxxxxxx,
     5                                                         9,524,647              18,797          1,233,389
          xxxxxxxx, xxxxxxxxxxxx
          xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
     6                                                         9,000,894              31,259            618,865
          xxxxxxxxxxxx, xxxxxxxxxxxx
          xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxxxx,
     7                                                         8,994,747              90,881            532,541
          xxxxxxxxxxxx
          xxxxxx xxxx xxxx xxxxxx – xxxxxx,
     8                                                         8,896,076               2,714             14,161
          xxxxxxxxx, xxxxxxxxxxxx
          xxxxx x. xxxxx xx. xxxxxxxx xxxx xxxxxx –
     9                                                         8,469,074               2,183            357,060
          xxx xxxxx, xxxxxx, xxxxxxxxxxxx
          xxxxxxxxx xxxx xxxxxx xxxxxx – xxxxxxxxx,
     10                                                        8,136,525              44,785          2,032,886
          xxxxxxxx, xxxxxxxxxxxx
          xxxxxxxx xxxx xxxxxx xxxxxx – xxxxxxxx,
     11                                                        8,129,437              39,646            362,133
          xxxxxxxx, xxxxxxxxxxxx
          xxx xxxxxxx xxx xxxx xxxxxxxx – xxx
     12                                                        7,995,550               1,416            128,075
          xxxxxxx, xxxxx, xxxxxxxxxxxx
          xxxxxxxx x. xxxxxxxxx xxxxxxx – xxx xxxx,
     13                                                        7,799,444              14,640             32,757
          xxx xxxx, xxxxxxxxxxxx
          xxxx xxxx xxxxx xxxx xxxxxx xxxxxx xxxx –
     14                                                        7,530,113                   —                  —
          xxxx xxxx xxxxx, xxxxxxx, xxxxxxxxxxxx
          xxxxx xxxx xxxx xxxx xxxxxx – xxxxx xxxx,
     15                                                        7,503,575               2,108             63,109
          xxxxx xxxxxx, xxxxxxxxxxxx
          xxxxxxxx xxxx xxxxxx xxxxxxx – xxxxxxxx,
     16                                                        7,249,057              19,874          5,933,604
          xxxxxx, xxxxxxxxxxxx
          xxxxxx xxxx xxxxxx – xxxxxx, xxxxxxxx,
     17                                                        7,123,227                   —                  —
          xxxxxxxxxxxx
          xxxxxxxx xxxx xxxx xxxx xxxxxx – xxxxxxxx
     18                                                        6,628,192               8,322            145,234
          xxxx, xxxxxxxxxx, xxxxxxxxxxxx



14
   Depending on the specific nature of the findings involved, we reported these amounts as questioned costs,
unsupported questioned costs, funds put to better use, unrecoverable revenue, recoverable revenue, or refundable
revenue.
15
   Depending on the specific nature of the findings involved, we reported these amounts as assets at risk,
accountable items at risk, revenue at risk, or disbursements at risk.



                                                        16
Fiscal Year 2008 Financial Installation Audits –                                       FF-AR-09-055
 Post Offices, Stations, and Branches


                                                         FY 2007      Monetary       Non-Monetary
                Report Title and Number                  Revenue      Impact14         Impact15
       xxxx xxxxxxxx xxxx xxxxxx – xxxxxxxxxxxx,
 19                                                      $6,404,916      $41,669          $41,341
       xxxxxxx, xxxxxxxxxxxx
       xxxxx xxxxxxxx xxxx xxxxxx – xxxxxxx xxxx,
 20                                                       6,032,753        8,796          937,890
       xxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxxxxxx xxxx xxxxx xxxxxx xxxx –
 21                                                       5,773,444              —             —
       xxxxx, xxxxxxx, xxxxxxxxxxxx
       xxxxxx xxxxx xxxxxx – xxxxxx, xxx xxxxxx,
 22                                                       5,516,656        6,640               —
       xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxx,
 23                                                       5,500,469              —         52,800
       xxxxxxxxxxxx
       xxxxx xxxxxxx xxxx xxxx xxxxxx – xxxxx
 24                                                       5,456,301       48,214         1,767,566
       xxxxxxx, xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxx xxxxxx – xxxxxxxxxx,
 25                                                       5,234,212       60,031          202,056
       xxx xxxxxxxxx, xxxxxxxxxxxx
       xxxxxx xxxx xxxxxxx – xxxxxxxx xxxx,
 26                                                       3,447,038       10,296          183,530
       xxxxxxxx, xxxxxxxxxxxx
       xxxxxx xxxxxx xxxx xxxx xxxxxx – xxxxxx
 27                                                       3,349,304       18,428           11,113
       xxxxxx, xxx xxxx, xxxxxxxxxxxx
       xxxxx xxxxx xxxxxx – xx. xxxxx, xxxxxxxx,
 28                                                       3,067,249       19,622           13,196
       xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxx xxxxxx – xxxxxxxxxx,
 29                                                       3,063,081              —             —
       xxx xxxx, xxxxxxxxxxxx
       xxxxx xxxxx xxxxxxx – xxxxxxxxx,
 30                                                       2,877,470       16,424           66,624
       xxxxxxxxx, xxxxxxxxxxxx
       xxxx xxxxxx xxxxxxx – xxxxxxxxxx, xxxxxxx,
 31                                                       2,784,812       31,059            1,023
       xxxxxxxxxxxx
       xxxxxxx xxxxxxx xxxx xxxxxx – xxx xxxxxxx,
 32                                                       2,644,903       53,797          228,334
       xxxxxxxxxx, xxxxxxxxxxxx
       xxx xxxx xxxxx xxxxxxx – xxx xxxxxx
 33                                                       2,537,471              —         75,167
       xxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxxx xxxxxxx – xxxxxxxx, xxx xxxx,
 34                                                       2,481,846        1,957           66,165
       xxxxxxxxxxxx
       xxxxxxx xxxx xxxx xxxxxx – xxxxxxx,
 35                                                       2,455,951        8,772               —
       xxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxx xxxxxx – xxxxxxxx,
 36                                                       2,444,711        5,499               —
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxx xxxxxx xxxxxx – xxxxxxxxxxx,
 37                                                       2,327,952              —
       xxxxxxxx, xxxxxxxxxxxx                                                             149,902
       xxxxxx xxxx xxxx xxxx xxxxxx – xxxxxx
 38                                                       2,181,370              —
       xxxx, xxxxxxxxxx, xxxxxxxxxxxx                                                     434,000
       xxxxx xxxxxxx – xxxxxx xxxxxxx, xxxxx,
 39                                                       2,167,426        2,574           50,277
       xxxxxxxxxxxx
       xxxxxxxxxxxx xxxx xxxxxx xxxxxx –
 40                                                       2,157,073        4,807          536,218
       xxxxxxxxxxxx, xxxxxxxxx, xxxxxxxxxxxx




                                                    17
Fiscal Year 2008 Financial Installation Audits –                                       FF-AR-09-055
 Post Offices, Stations, and Branches


                                                         FY 2007      Monetary       Non-Monetary
                Report Title and Number                  Revenue      Impact14         Impact15
       xxxxx xxxx xxxx xxxxxx – xxxxx, xxxxx
 41                                                      $2,060,223       $1,705           $2,142
       xxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
 42                                                       1,964,641              —         60,462
       xxxxxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxxx xxxx xxxxxx – xxxxx xxxxx,
 43                                                       1,900,421       17,193               —
       xxxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxxxx xxxx xxxxxx – xxxxxxxx,
 44                                                       1,818,808        5,584          538,984
       xxxx, xxxxxxxxxxxx
       xxxxxx xxxx xxxxxxx – xxxxxxxxx, xxxxx,
 45                                                       1,808,747        3,078          146,176
       xxxxxxxxxxxx

 46    xxxxx xxxxxx – xxxxx, xxxxxxxx,xxxxxxxxxx          1,807,857        1,591          906,986

       xxxxxxxxx xxxxxx xxxxxx – xx. xxxxxxx,
 47                                                       1,793,592              —         84,315
       xxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxxxxx – xxxxxxxxx – xxxxxxxxx,
 48                                                       1,711,199        1,336           31,199
       xxxxxx, xxxxxxxxxxxx
       xxxx xxxxx xxxx xxxxxx – xxxx xxxxx,
 49                                                       1,706,791              —         37,839
       xxxxxxx, xxxxxxxxxxxx
       xxxxxxxxx xxxx xxxx xxxxxx – xxxxxxxxx,
 50                                                       1,581,309        3,900               —
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxx xxxx xxxxxx – xxxxxxxxx,
 51                                                       1,449,327        1,231          263,460
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxx xxxxxxx xxxxxxx – xxxxxxx,
 52                                                       1,430,306              —             —
       xxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxx
 53                                                       1,329,111              —          7,917
       xxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxxxx,
 54                                                       1,133,786              —         25,149
       xxxxxxxxxxxx
       xxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx, xxxx,
 55                                                       1,132,507              —          9,545
       xxxxxxxxxxxx
       xxxxxxxx xxxxxx xxxx xxxxxx – xxxxxxxx,
 56                                                        980,398               —             —
       xxx xxxx, xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxx xxxxxx – xxxxxxxxxx,
 57                                                        966,647               —         24,201
       xxx xxxxxx, xxxxxxxxxxxx
       xxxx xxx xxxxxxx – xxxxxxx, xxxxxxxx,
 58                                                        955,807         1,193           26,428
       xxxxxxxxxxxx
       xxxxxxx xxxx xxxxxx xxxxxx xxxx – xxxxxxx,
 59                                                        944,450               —             —
       xxxxx, xxxxxxxxxxxx
       xxxxxxx xxxx xxxxxx – xxxxxxx, xxxx,
 60                                                        873,099               —         43,809
       xxxxxxxxxxxx
       xxxxx xxxxxx – xxxxxx, xxxx,
 61                                                        865,344        11,666           40,180
       xxxxxxxxxxxx
       xxxxx xxxx xxxx xxxxxx – xxxxx, xxxxxxxx,
 62                                                        828,616               —         23,879
       xxxxxxxxxxxx




                                                    18
Fiscal Year 2008 Financial Installation Audits –                                      FF-AR-09-055
 Post Offices, Stations, and Branches


                                                         FY 2007     Monetary       Non-Monetary
               Report Title and Number                   Revenue     Impact14         Impact15
       xxxxx xxxx xxxx xxxxxx – xxxxx xxxx,
 63                                                       $798,139       $6,810        $1,311,097
       xxxxxxxxxxx; xxxxxxxxxxxx
       xxx xxxx xxxxxxx – xxxxxxxx, xxx xxxx,
 64                                                        796,407       10,479            7,293
       xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxxxx – xxxxxxxxxx,
 65                                                        774,348              —         36,026
       xxxxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
 66                                                        765,378              —          7,621
       xxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxx xxxxxxx xxxxxxx – xxxxxxxxxx,
 67                                                        755,037              —         11,876
       xxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxxxxxx xxxx xxxxxx – xxxxx
 68                                                        686,266              —          3,998
       xxxxxxxx, xxxxxxxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxx xxxx xxxxxx – xxxxx, xxxxx,
 69                                                        668,609        1,064            8,972
       xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxxxx – xxxxxxxxxx,
 70                                                        643,000              —             —
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx,
 71                                                        613,369              —        218,697
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
 72                                                        580,200              —             —
       xxxxxxxx, xxxxxxxxxxxx
       xxxxxxx xxxxxx xxxx xxxxxx – xxxxxxx, xxx
 73                                                        574,650        1,517           50,039
       xxxxxx, xxxxxxxxxxxx
       xxxxxx xxxx xxxxxx – xxxxxx, xxxxxxxxxx,
 74                                                        527,125              —         11,235
       xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxx xxxx,
 75                                                        518,151              —         13,846
       xxxxxxxxxxxx
       xxxxxx xxxxx xxxxx xxxx xxxxxx – xxxxxx
 76                                                        473,280              —        771,365
       xxxxx xxxxx, xxxxxxxxxxxxx, xxxxxxxxxxxx
       xxxxx xxxx xxxxxx – xxxxx, xxxxxxxxxxxx,
 77                                                        472,145        7,254            4,213
       xxxxxxxxxxxx
       xxxxxxxxxx xxxx xxxx xxxxxx – xxxxxxxxxx
 78                                                        453,617              —          7,018
       xxxx, xxx xxxxxx, xxxxxxxxxxxx
       xxxxxxx xxxx xxxxxx – xxxxxxx, xxxxxxxx,
 79                                                        434,960              —         44,764
       xxxxxxxxxxxx
       xxxxxx xxxx xxxxxx – xxxxxx, xxxxxxx,
 80                                                        324,985              —             —
       xxxxxxxxxxxx
       xxxxxx xxxx xxxx xxxxxx – xxxxxx,
 81                                                        289,338              —             —
       xxxxxxxx, xxxxxxxxxxxx
       xxxx xxxxxxx xxxx xxxxxx – xxxx xxxxxxx,
 82                                                        260,975              —          1,200
       xxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
 83                                                        252,590              —             —
       xxx xxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxx,
 84                                                        237,630              —          7,134
       xxxxxxxxxxxx




                                                    19
Fiscal Year 2008 Financial Installation Audits –                                         FF-AR-09-055
 Post Offices, Stations, and Branches


                                                          FY 2007       Monetary       Non-Monetary
               Report Title and Number                    Revenue       Impact14         Impact15
       xxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxx,
 85                                                         $221,613               —        $27,627
       xxx xxxxxxxxx, xxxxxxxxxxxx
       xx xxxxx xxxx xxxxxx – xx xxxxx, xxxxxxxx,
 86                                                          220,011               —         18,763
       xxxxxxxxxxxx
       xxxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxxx,
 87                                                          201,278               —         16,084
       xxxxx, xxxxxxxxxxxx
       xxxx xxxxxx xxxx xxxxxx – xxxx xxxxxxx
 88                                                          191,393        $1,227          629,901
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxxxxx xxxx xxxx xxxxxx –
 89                                                          173,234               —           6,678
       xxxxxxxxxxxx, xxxxxxx, xxxxxxxxxxxx
       xxxxxx xxxx xxxx xxxxxx – xxxxxx,
 90                                                          166,391               —              —
       xxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx, xxxxxx
 91                                                          153,953         9,146         1,147,788
       xxxx, xxxxxxxxxxxx
       xxxxxxx xxxxxxx – xxxx xxxxxx, xxx xxxxxx,
 92                                                          143,653         3,332         1,027,486
       xxxxxxxxxxxx
       xxxxx xxxxxx xxxx xxxx xxxxxx – xxxxx
 93                                                          128,384               —         35,280
       xxxxxx, xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxx xxxxxx – xxxxxxxx,
 94                                                          119,781               —         15,825
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxxxx – xxxxxxxx,
 95                                                          115,404               —           1,282
       xxxxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxxx xxxx xxxxxx – xxxxxxxxx,
 96                                                                                —           1,434
       xxxxxxx, xxxxxxxxxxxx                                 111,496
       xxxxxxxxxxxx xxxx xxxxxx – xxxxxxxxxxxx,
 97                                                          100,340         3,894                —
       xxxx xxxxxxxx, xxxxxxxxxxxx
       xxxxxx-xxxxx xxxxxxx – xxxxx, xxx xxxxxx,
 98                                                           99,917               —              —
       xxxxxxxxxxxx
       xxxxxx xxxx xxxx xxxxxx – xxxxxx, xxxxx
 99                                                           99,440               —           7,184
       xxxxxx, xxxxxxxxxxxx
       xxxxxx xxxx xxxxxx – xxxxxx, xxxxxxxx,
 100                                                          95,792               —              —
       xxxxxxxxxxxx
       xxxxxxx xxxxx xxxx xxxxxx – xxxxxxx xxxxx,
 101                                                          94,370               —         14,161
       xxxxxxxx, xxxxxxxxxxxx
       xxxxxxx xxxx xxxxxx – xxxxxxx, xxx xxxx,
 102                                                          71,899               —           4,096
       xxxxxxxxxxxx
       xxxxx xxxx xxxxxx – xxxxx, xxxxxxx,
 103                                                          67,231               —        130,792
       xxxxxxxxxxxx
       xxxxx xxxx xxxx xxxxxx – xxxxx,
 104                                                          63,120               —              —
       xxxxxxxxxx, xxxxxxxxxxxx
       xxxxxxxx xxxx xxxx xxxx xxxxxx – xxxxxxxx
 105                                                          58,439               —              —
       xxxx, xxxxxxx, xxxxxxxxxxxx

       Totals                                            $296,052,087     $819,602       $25,788,295




                                                    20
Fiscal Year 2008 Financial Installation Audits –             FF-AR-09-055
 Post Offices, Stations, and Branches


                         APPENDIX G: MANAGEMENT’S COMMENTS




                                                   21
Fiscal Year 2008 Financial Installation Audits –        FF-AR-09-055
 Post Offices, Stations, and Branches




                                                   22
Fiscal Year 2008 Financial Installation Audits –        FF-AR-09-055
 Post Offices, Stations, and Branches




                                                   23
Fiscal Year 2008 Financial Installation Audits –        FF-AR-09-055
 Post Offices, Stations, and Branches




                                                   24
Fiscal Year 2008 Financial Installation Audits –        FF-AR-09-055
 Post Offices, Stations, and Branches




                                                   25
